TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Identity Protection Personal
                         Identification Numbers Are Not
                        Provided to All Eligible Taxpayers



                                     September 24, 2014

                             Reference Number: 2014-40-086




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


IDENTITY PROTECTION PERSONAL                             processed in a time frame similar to the general
IDENTIFICATION NUMBERS ARE NOT                           population of return filers claiming a refund.
PROVIDED TO ALL ELIGIBLE                                 Although the program expanded, the IRS did not
TAXPAYERS                                                provide an IP PIN to 532,637 taxpayers who had
                                                         an identity theft indicator on their tax account
                                                         indicating that the IRS resolved their case. The
Highlights                                               IRS also did not provide an IP PIN to
                                                         24,628 taxpayers whose Personally Identifiable
Final Report issued on                                   Information had been lost, breached, or stolen
September 24, 2014                                       by/from the IRS.
                                                         IRS programming errors resulted in
Highlights of Reference Number: 2014-40-086
                                                         32,274 taxpayers not timely receiving an IP PIN
to the Internal Revenue Service Deputy
                                                         and the issuance of 13,220 IP PIN notices to
Commissioner for Operations Support and
                                                         deceased taxpayers. In addition, the IP PIN
Commissioner for the Wage and Investment
                                                         notice issued to 759,446 taxpayers for
Division.
                                                         Processing Year 2013 does not provide
IMPACT ON TAXPAYERS                                      taxpayers adequate instructions on the use of
                                                         the number and its importance on a tax return.
Tax-related identity theft continues to be one of
the biggest challenges facing the IRS. To                WHAT TIGTA RECOMMENDED
provide relief to victims of identity theft, the IRS
                                                         TIGTA recommended that the IRS 1) ensure
began issuing Identity Protection Personal
                                                         that IP PINs are consistently issued, 2) revise IP
Identification Numbers (IP PIN) to eligible
                                                         PIN issuance criteria to make eligible those
taxpayers in Fiscal Year 2011. Use of an IP PIN
                                                         taxpayers who have had their Personally
provides relief to taxpayers because it allows the
                                                         Identifiable Information lost, breached,
IRS to process the tax returns without delay and
                                                         disclosed, or stolen and have authenticated
helps prevent the misuse of taxpayers’ Social
                                                         themselves, 3) ensure that the finalized IP PIN
Security Numbers on fraudulent tax returns.
                                                         criteria are provided to the Applications
WHY TIGTA DID THE AUDIT                                  Development function before each filing season,
                                                         4) ensure that IP PIN criteria are accurately
The IP PIN helps the IRS verify a taxpayer’s             programmed, and 5) revise the IP PIN issuance
identity and accept his or her electronically filed      notice to explain the effect on processing a
or paper tax return. This audit was initiated to         recipient’s tax return and refund when the
assess the IP PIN criteria and processes to              number is not included on their filed tax return.
determine whether the IRS is improving its
assistance to victims of identity theft.                 The IRS agreed with the recommendations.
                                                         However, its corrective action for one of the
WHAT TIGTA FOUND                                         recommendations does not adequately address
                                                         the concerns raised. The IRS indicates that
For Processing Year 2013, the IRS issued over
                                                         individuals whose Personally Identifiable
770,000 IP PIN notices to taxpayers for use in
                                                         Information was compromised are eligible to
filing their tax returns. This number increased to
                                                         receive an IP PIN. However, the IRS’s website
over 1.2 million for Processing Year 2014. The
                                                         for its online IP PIN application still has not been
IRS also started a limited pilot in January 2014
                                                         updated to inform these individuals of this
whereby taxpayers who obtained an electronic
                                                         option.
filing PIN through an IRS authentication website
and live in the District of Columbia, Florida, or
Georgia were provided an opportunity to obtain
an IP PIN. In addition, taxpayers who used their
IP PIN to file their tax returns claiming a refund
in Processing Year 2013 had their returns
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 24, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Identity Protection Personal Identification
                             Numbers Are Not Provided to All Eligible Taxpayers
                             (Audit # 201440036)

 This report presents the results of our review to assess the Identity Protection Personal
 Identification Number criteria and processes to determine whether the Internal Revenue Service
 is improving its assistance to victims of identity theft. This review addresses the major
 management challenge of Providing Quality Taxpayer Service Operations and is part of our
 discretionary audit coverage.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                                    Identity Protection Personal Identification
                                 Numbers Are Not Provided to All Eligible Taxpayers




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Identity Protection Personal Identification Numbers
          Are Not Provided to All Eligible Taxpayers................................................. Page 4
                    Recommendations 1 and 2: ................................................ Page 6

          Programming Errors Resulted in Taxpayers Not Timely
          Receiving Identity Protection Personal Identification
          Numbers ........................................................................................................ Page 6
                    Recommendations 3 and 4: ................................................ Page 7

          The Identity Protection Personal Identification Number
          Notice Does Not Provide Adequate Instructions .......................................... Page 8
                    Recommendation 5:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures............................................................... Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 17
               Identity Protection Personal Identification
            Numbers Are Not Provided to All Eligible Taxpayers




                       Abbreviations

AD              Applications Development
CP              Computer Paragraph
e-file(d)       Electronically file(d)
IP PIN          Identity Protection Personal Identification Number
IRS             Internal Revenue Service
PGLD            Privacy, Governmental Liaison, and Disclosure
PII             Personally Identifiable Information
PY              Processing Year
                               Identity Protection Personal Identification
                            Numbers Are Not Provided to All Eligible Taxpayers




                                             Background

Tax-related identity theft continues to be one of the biggest challenges facing the Internal
Revenue Service (IRS). To provide relief to victims of identity theft, the IRS began issuing
Identity Protection Personal Identification Numbers (IP PIN) to eligible taxpayers in Fiscal
Year1 2011. An IP PIN is a six-digit number assigned to eligible taxpayers that allows their tax
returns/refunds to be processed without delay and helps prevent the misuse of their Social
Security Numbers on fraudulent Federal income tax returns. For Processing Year2 (PY) 2013,
the IRS issued over 770,000 IP PIN notices to taxpayers for use in filing their tax returns. The
number of IP PIN notices increased to over 1.2 million for PY 2014.
IP PINs are issued before each filing season,3 and taxpayers who receive these numbers are
instructed by the IRS to use them on their electronically filed (e-filed) and paper tax returns to
confirm their identity. The IRS will issue victims of identity theft a new IP PIN each year for
use in filing their tax return. The yellow highlighted section in Figure 1 shows where primary
filers should enter their IP PIN on Tax Year4 2013 Form 1040, U.S. Individual Income Tax
Return.5
        Figure 1: Excerpt From Form 1040 With IP PIN Area Highlighted in Yellow




    Source: IRS.gov
The IP PIN helps the IRS verify a taxpayer’s identity and, as a result, accept his or her e-filed or
paper tax return. For e-filed tax returns filed with an incorrect or missing IP PIN, the tax return
will be rejected until it is submitted with the correct IP PIN or the taxpayer files on paper. If the
same conditions occur on a paper return, the IRS will delay the processing of the tax return and
any refund due to determine if the tax return was filed by the legitimate taxpayer.




1
  Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
2
  The calendar year in which the tax return or document is processed by the IRS.
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
5
  This section of the Form 1040 is the same for Tax Year 2012.
                                                                                                            Page 1
                                Identity Protection Personal Identification
                             Numbers Are Not Provided to All Eligible Taxpayers



The Privacy, Governmental Liaison, and Disclosure office is responsible for
developing criteria used to identify taxpayers who should receive an IP PIN
The Privacy, Governmental Liaison, and Disclosure (PGLD) office, located within the IRS’s
Deputy Commissioner for Operations Support office, oversees the IP PIN process, including
determining which taxpayers are provided an IP PIN. For example, annually the PGLD office
provides the IRS Information Technology organization’s Applications Development (AD)6
function with the specific criteria to identify those taxpayers who will be issued an IP PIN. The
AD function is responsible for developing the programming that will be used to review tax
accounts to identify those taxpayers who meet the PGLD criteria.

Assignment of an IP PIN
Each year in December, the IRS mails IP PINs to taxpayers who are confirmed by the IRS as
victims of identity theft. These taxpayers previously received either an IRS letter or notice
notifying them that an identity theft indicator was placed on their tax account. Most tax returns
filed using the identity of a confirmed victim are flagged during tax return processing and sent
for additional screening before any tax refund is issued. This screening is designed to detect tax
returns filed by identity thieves who attempt to reuse a victim’s identity in subsequent years and
to prevent the issuance of fraudulent tax refunds. The identity theft indicator also allows the IRS
to track the types of identity theft incidents (IRS-identified or taxpayer-initiated)7 and the actions
taken by employees on taxpayers’ accounts.
The IRS sends Notice Computer Paragraph (CP) 01A, We assigned you an Identity
Protection Personal Identification Number, that contains the IP PIN. Issuance of this
notice and IP PIN is a systemic process based on identifying those tax accounts with
certain identity theft indicators. Not all taxpayers whose tax accounts have an identity theft
indicator will receive an IP PIN. For example, the IRS should not send an IP PIN to those
individuals who are deceased or for whom mail was previously returned undeliverable.8
The IRS also proactively provides an IP PIN to taxpayers who have an increased exposure to the
possibility of identity theft. For example, if a taxpayer calls the IRS to report a lost or stolen
wallet or purse, the IRS will provide an IP PIN if the taxpayer successfully authenticates his or
her identity by providing one or more valid Federal or State Government-issued forms of
identification9 and Form 14039, Identity Theft Affidavit, or a legible copy of a police report

6
  The AD function is responsible for developing systems that manage taxpayer accounts from the initial filing of a
tax return, interactions with taxpayers, and potential audit and collection activities.
7
  IRS-identified cases are those for which the IRS proactively identified the taxpayer as a potential identity theft
victim. Taxpayer-initiated cases are those for which taxpayers initiated contact with the IRS; for example, to report
that after filing a tax return they received a notice indicating that it was rejected because someone else (an identity
thief) had already filed a tax return using the same Social Security Number and name. A taxpayer may have more
than one incident if the identity thief uses the stolen identity to file a fraudulent tax return for multiple tax years.
8
  If mail has been returned as undeliverable, this implies that the IRS does not have a good address for the taxpayer.
9
  Forms of identification include a Social Security card, passport, driver’s license, or State identification card.
                                                                                                                Page 2
                                Identity Protection Personal Identification
                             Numbers Are Not Provided to All Eligible Taxpayers



indicating identity theft as the issue. In another example, the IRS started a limited pilot in
January 2014 whereby taxpayers who obtained an e-file PIN through an IRS authentication
website and live in the District of Columbia, Florida, or Georgia were provided with an
opportunity to obtain an IP PIN. The District of Columbia and these two States were selected for
the pilot because they have the highest per-capita percentages of tax-related identity theft. As
part of this pilot, the IRS issued an IP PIN to 9,934 taxpayers in PY 2014.10

Replacement IP PINs are provided to taxpayers who report that they lost their
original IP PIN
Subsequent to IRS issuance of an IP PIN, taxpayers who lose or misplace their IP PIN can
contact the IRS to request a replacement IP PIN. For PY 2013, we identified 75,121 taxpayers
who were issued an IP PIN but filed a tax return with a valid replacement IP PIN. Unlike the
original IP PIN issued to taxpayers prior to a filing season, the IRS issues the same six-digit IP
PIN as the replacement number to all taxpayers who lose their original IP PIN based on the
month they contact the IRS. For example, the replacement IP PINs differed for each month from
January 2013 to May 2013. From June to December 2013, the same replacement IP PIN was
provided to taxpayers who called the IRS saying they lost their IP PIN.
In addition, IRS procedures require customer service representatives to explain to callers
requesting a replacement IP PIN that the use of the replacement IP PIN will cause a delay in
processing their tax return and in issuing refunds. Tax returns using replacement IP PINs are
systemically accepted by the IRS but are not processed normally. These returns are subjected to
further scrutiny to verify that the tax return was submitted by the legitimate taxpayer.
For PY 2014, the IRS implemented an automated IP PIN retrieval process. Taxpayers can
authenticate themselves using an online authentication tool found on the IRS’s website
(www.IRS.gov) and, if successfully authenticated, their original IP PIN will be provided. This
improvement is intended to allow the IRS to process the taxpayer’s tax return without delay. If
the taxpayer cannot pass authentication or chooses to not use the online tool, the taxpayer can
still use the IRS’s customer service line to obtain a replacement IP PIN.
This review was performed with information obtained from the Information Technology
organization’s AD function in Lanham, Maryland, and the PGLD office in Kansas City,
Missouri, during the period August 2013 through June 2014. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.


10
     As of April 24, 2014.
                                                                                            Page 3
                               Identity Protection Personal Identification
                            Numbers Are Not Provided to All Eligible Taxpayers




                                       Results of Review

Identity Protection Personal Identification Numbers Are Not Provided
to All Eligible Taxpayers
The IRS did not provide an IP PIN to 557,265 taxpayers for PY 2013. These taxpayers were
either confirmed by the IRS as being a victim of tax-related identity theft or had their Personally
Identifiable Information (PII)11 lost, breached, disclosed, or stolen by/from the IRS. Specifically:
        532,637 taxpayers with an identity theft indicator on their tax account indicating that the
         IRS confirmed they were a victim of identity theft, resolved their case, and corrected their
         tax account (i.e., updated their address). PGLD officials indicated that the IP PINs were
         not sent to these taxpayers because the PGLD office was not confident that IRS
         employees outside of the Wage and Investment Division’s Accounts Management
         function correctly updated these tax accounts with the innocent taxpayer’s address. The
         IRS’s internal guidelines require all employees working identity theft cases to verify the
         legitimate taxpayer’s address prior to marking a tax account as resolved with an indicator.
         At the end of our review, a PGLD executive stated that there were other reasons why
         these victims were not issued an IP PIN. PGLD officials provided documentation
         showing decisions to not provide an IP PIN to some of these taxpayers. However, our
         review of this documentation found that it did not support the IRS’s decisions to exclude
         these taxpayers from receiving an IP PIN.
        24,628 taxpayers with an identity theft indicator on their tax account indicating that their
         PII was lost, breached, disclosed, or stolen by/from the IRS. For example, a taxpayer’s
         case file containing PII is lost while being shipped from one IRS location to another. The
         IRS, recognizing that there is a risk to this taxpayer, mails Letter 4281C, Incident
         Management Breach Notification Letter, advising the taxpayer of the data loss and
         informing him or her that the IRS does not know if the information will be misused.
         Although the letter provides instructions on how the taxpayer can obtain free credit
         monitoring for one year, it does not offer the taxpayer the opportunity to contact the IRS
         to authenticate their identity and become eligible to obtain an IP PIN.
         PGLD officials stated they did not provide an IP PIN because these individuals have not
         been a victim of tax-related identity theft. However, it should be noted that this position


11
  PII refers to information that can be used to distinguish or trace an individual’s identity, such as name or Social
Security Number, alone or when combined with other personal or identifying information that is linked or linkable
to a specific individual, such as date and place of birth or mother’s maiden name.
                                                                                                               Page 4
                                  Identity Protection Personal Identification
                               Numbers Are Not Provided to All Eligible Taxpayers



           is not consistent with actions the IRS takes to proactively provide an IP PIN to taxpayers
           who have an increased exposure to the possibility of identity theft. For example,
           taxpayers who report a lost or stolen wallet and taxpayers who obtain an e-file PIN from
           the IRS’s authentication website are provided the opportunity to authenticate and obtain
           an IP PIN.
In addition, we found that PGLD officials could not provide complete documentation detailing
the criteria used to identify taxpayers to be sent an IP PIN. Excluding eligible taxpayers from the
IP PIN program will delay IRS processing of their tax returns and receipt of their tax refund.
PGLD officials indicated that for PY 2014, the IRS considered expanding the offering of IP PINs
to those eligible taxpayers who were omitted from the program in PY 2013. These taxpayers
would have been provided the opportunity to register, authenticate themselves, and obtain an IP
PIN. However, shortly before notifications were scheduled to be mailed to these taxpayers, the
IRS canceled the letters. Even if the IRS mailed these letters, the need for these taxpayers to
again authenticate themselves is not consistent with other taxpayers whose cases were worked
and confirmed as a victim of identity theft. For example, taxpayers whose cases are worked and
confirmed as victims of identity theft are issued an IP PIN each year and do not have the
additional burden of having to once again authenticate themselves.

Use of IP PINs when filing tax returns reduces burden on victims of identity theft
Taxpayers who used an IP PIN to file their tax return in PY 2013 had their returns processed in a
time frame similar to the general population of return filers. Use of the IP PIN resulted in these
taxpayers’ returns and refunds being processed without delay. Figure 2 provides a comparison
of the time frames for processing refund returns filed with a valid IP PIN to those for processing
all other tax returns (i.e., the general population of tax return filers) claiming a refund.
                 Figure 2: Comparison of Processing Times for Tax Returns
                With a Valid IP PIN to All Other Tax Returns Claiming a Refund

                                     Type of Tax Return                                    Average Days
             Paper tax return using an IP PIN                                                 37 days

             General population paper tax return                                              36 days

             E-filed tax return with an IP PIN                                                27 days

             General population e-filed tax return                                            26 days
            Source: Our analysis of all Tax Year 2012 refund returns recorded in the Individual Master
            File12 during Calendar Year 2013.



12
     The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 5
                           Identity Protection Personal Identification
                        Numbers Are Not Provided to All Eligible Taxpayers



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure that IP PINs are consistently issued to victims of identity theft.
The criteria used to identify or exclude taxpayers to receive an IP PIN should be documented
each year.
       Management’s Response: The IRS agreed with this recommendation. The IRS has
       documented the criteria to be used for issuing IP PINs to victims of identity theft. The
       IRS also stated that it will continue to analyze accounts and adjust the criteria annually,
       when appropriate, to ensure that the IP PIN assignment is consistent with the documented
       criteria.
Recommendation 2: Revise IP PIN issuance criteria to make eligible those taxpayers who
have had their PII lost, breached, disclosed, or stolen and have authenticated themselves.
Letter 4281C should be revised to include instructions on how these taxpayers can authenticate
themselves to obtain an IP PIN.
       Management’s Response: The IRS agreed with this recommendation and stated that
       taxpayers who have had their PII lost, breached, disclosed, or stolen are currently eligible
       to receive an IP PIN via the online IP PIN application. Letter 4281C, Incident
       Management Breach Notification, for mailings on or after January 2015 has been revised
       to include information about the IP PIN and includes a link to the web page where
       taxpayers may register and obtain an IP PIN.
       Office of Audit Comment: Although the IRS indicates that these individuals are
       eligible to receive an IP PIN, our review of the IRS’s website for its online IP PIN
       application determined that it still has not been updated to inform these taxpayers of their
       eligibility to obtain an IP PIN. These taxpayers are unaware of their ability to obtain an
       IP PIN until the IRS notifies them beginning in January 2015.

Programming Errors Resulted in Taxpayers Not Timely Receiving
Identity Protection Personal Identification Numbers
Our review of the computer programming code used by the AD function to identify taxpayers to
be issued an IP PIN found errors relating to the criteria used to identify eligible taxpayers as well
as those taxpayers who should not receive an IP PIN (e.g., deceased taxpayers). These errors
resulted in taxpayers not timely receiving IP PINs and the IRS incorrectly issuing IP PIN notices
to deceased taxpayers. For example, we identified that:
      The PGLD office provided the AD function with specific criteria to identify taxpayers to
       receive an IP PIN who had certain identity theft indicators on their tax accounts.
       However, the AD function incorrectly programmed its code to only check the most recent
                                                                                              Page 6
                          Identity Protection Personal Identification
                       Numbers Are Not Provided to All Eligible Taxpayers



       indicator placed on a tax account rather than researching the entire account to identify an
       identity theft indicator placed on the account at any time. This error resulted in some
       taxpayers not receiving an IP PIN prior to the start of the 2013 Filing Season. On
       February 4, 2013, the IRS detected this error and mailed a second batch of IP PINs—
       88,255 additional IP PINs. IRS officials stated that this second mailing included IP PINs
       for 32,274 taxpayers who should have received their IP PIN during the first mailing and
       55,981 who had become eligible subsequent to the first mailing.
      The AD function programmed its code to prevent an IP PIN from being issued to
       deceased identity theft victims but did not suppress the CP01A notices from being issued.
       As a result, 13,220 IP PIN notices were mailed to deceased taxpayers. Although a notice
       was issued, an IP PIN was not included with the notice. The programming error resulted
       from the AD function receiving multiple requests from the PGLD office providing
       additional IP PIN requirements. The requests were often informally communicated via
       e-mail or discussed in meetings. The PGLD office did not provide the AD function with
       documentation detailing the finalized IP PIN requirements, and the programming
       requirements document was prepared incorrectly by the AD function.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Ensure that finalized IP PIN criteria are provided to the AD function
prior to each filing season outlining the requirements to be used to identify and exclude
taxpayers from receiving an IP PIN.
       Management’s Response: The IRS agreed with this recommendation. The finalized
       IP PIN criteria were provided to the AD function on May 14, 2014. The IRS will
       continue to provide updates to the AD function when criteria are changed.
The Deputy Commissioner for Operations Support should:
Recommendation 4: Establish a process to ensure that IP PIN criteria are accurately
programmed by the AD function.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       believes that the IP PIN functionality was accurately programmed according to the
       requirements provided, but agrees that a stricter adherence to its prescribed engineering
       and solution design processes would help ensure programming accuracy. The IRS will
       ensure that these practices are followed.
       Office of Audit Comment: We disagree with the IRS’s statement that the
       AD function accurately programmed the IP PIN criteria. As stated in the report, errors in
       the computer programming code that the AD function used resulted in the IRS issuing
       IP PINs to 32,274 taxpayers after the start of the 2013 Filing Season. The errors also

                                                                                           Page 7
                                 Identity Protection Personal Identification
                              Numbers Are Not Provided to All Eligible Taxpayers



           resulted in the IRS unintentionally issuing 13,220 IP PIN notices to deceased taxpayers.
           We continue to believe that the Customer Account Services Director should establish a
           process to ensure that IP PIN criteria are accurately programmed so that eligible
           taxpayers receive an IP PIN and ineligible individuals do not.

The Identity Protection Personal Identification Number Notice Does
Not Provide Adequate Instructions
IRS Notice CP01A does not provide taxpayers with adequate instructions on how to use their
IP PIN and the importance of using it on their tax return. For example, the notice does not:
          Provide information regarding the effect on the processing of the taxpayer’s tax return
           and issuance of any refund due if the IP PIN is not used on their tax return. For example,
           if the primary taxpayer does not use his or her IP PIN when filing a tax return, IRS
           processing of their return and any refund due will be delayed. This delay results from the
           IRS having to perform research to determine if the return is fraudulent and filed by an
           identity thief or is the legitimate taxpayer’s tax return.
          Provide an explanation to taxpayers whose dependents received an IP PIN that these are
           not to be listed on their tax return. In fact, neither the e-filed or paper tax return contains
           an entry line for an IP PIN issued to a dependent. The IRS issues IP PINs to dependents
           whose Social Security Numbers have been used on a false tax return or whose identifying
           information was lost or stolen.
          Provide an explanation to those taxpayers who are a secondary filer (spouse) that if they
           are filing a paper tax return that their IP PIN is not to be listed on their tax return because
           the paper tax return does not contain an entry line (e-filed tax returns have an entry line
           that the spouse enters their IP PIN).
          Inform taxpayers who received an IP PIN that they do not need to use the IP PIN if they
           are not required to file a tax return.
For PY 2013, the IRS issued a total of 759,44613 CP01A notices to taxpayers. PGLD officials
stated that IRS Notice CP01A was intended to deliver the IP PIN, provide basic information, and
cannot cover every scenario involving use of the IP PIN. The notice directs taxpayers who lost
their IP PIN to an IRS website with additional information about the notice and a link to a
Frequently Asked Questions section. The officials also stated that they are attempting to address
the issue of identity theft indicators and IP PINs for dependents.
We agree that the notice cannot cover every scenario relating to the IP PIN. However, adequate
information for a taxpayer to understand how to use the IP PIN and the importance of using it on
a tax return are the key to reducing taxpayer burden. When taxpayers receive an IP PIN and are

13
     Total IP PINs issued minus the ones issued to deceased taxpayers (772,666 – 13,220).
                                                                                                   Page 8
                           Identity Protection Personal Identification
                        Numbers Are Not Provided to All Eligible Taxpayers



not provided sufficient information and/or cannot understand the actions they are asked to take,
these individuals may have to research the IRS’s website, visit a Taxpayer Assistance Center,
and/or call the IRS’s customer service line.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Revise IRS Notice CP01A to clearly detail the effect an IP PIN has on
the processing of a recipient’s tax return and issuance of any refund due when the issued IP PIN
is not included on the filed tax return. Revisions should also include key information relating to
use of an IP PIN for dependents, secondary filers, and taxpayers without a filing requirement.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       revise Notice CP01A, We assigned you an Identity Protection Personal Identification
       Number, to explain the effect that IP PINs have on recipient’s tax return processing and
       will include information relating to the use of IP PINs for dependents, secondary filers,
       and taxpayers without a filing requirement.




                                                                                            Page 9
                                Identity Protection Personal Identification
                             Numbers Are Not Provided to All Eligible Taxpayers



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IP PIN criteria and processes to determine
whether the IRS is improving its assistance to victims of identity theft.
I.       Determined the IRS policy for determining which taxpayers qualify for an IP PIN.
         A. Interviewed the PGLD office to identify the criteria and process they used to issue
            IP PINs.
         B. Researched the Internal Revenue Manual.1
         C. Reviewed IRS testimony, its identity theft strategy, and guidance on its public
            website to identify IRS policy for issuing an IP PIN.
         D. Reviewed the types of taxpayers to whom the IRS has issued an IP PIN and the
            justifications for doing so.
II.      Assessed the PY2 2013 IP PIN criteria and processes to determine whether victims who
         should have received an IP PIN were provided one and whether ineligible taxpayers were
         omitted (i.e., not provided an IP PIN).
         A. Obtained the list of taxpayers who received an IP PIN for PY 2013.
         B. Assessed the PGLD office’s eligibility criteria to determine whether they include all
            taxpayers who were eligible for an IP PIN. We determined that the IRS’s criteria are
            not adequate. We also identified the criteria that should have been used
         C. Compared the criteria that the PGLD office submitted to the Information Technology
            organization for the programming code used to query the Individual Master File3 and
            generate the IP PIN list to determine if the request was correctly programmed.
         D. Using the IP PIN criteria that the IRS should have used (identified in II.B), identified
            the population of taxpayers who were eligible to receive an IP PIN according to IRS
            policy and determined whether only these taxpayers received an IP PIN. This
            population is called the “Eligibility List.” We used an extract from the IRS’s
            Individual Master File. We validated that the data we received were accurate and


1
  The IRM is the primary, official source of IRS “instructions to staff” relating to the organization, administration,
and operation of the Service. It details the policies, delegations of authorities, procedures, instructions, and
guidelines for daily operations for all divisions and functions of the Service.
2
  The calendar year in which the tax return or document is processed by the IRS.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                               Page 10
                              Identity Protection Personal Identification
                           Numbers Are Not Provided to All Eligible Taxpayers



             reliable by comparing the data from the extract to the IRS’s Integrated Data Retrieval
             System.4 An auditor independent of the data analysis validated the analysis by
             reviewing the logic and rerunning the queries. We found that the data could be relied
             on for this review.
        E. Assessed the risks of different taxpayers using the same IP PIN and taxpayers using
           an IP PIN that was not issued.
        F. Obtained and assessed the PY 2014 criteria to determine if the criteria are appropriate
           to ensure that eligible taxpayers receive an IP PIN and are comparable to the PY 2013
           criteria.
        G. Determined whether the IRS previously issued notices to deceased taxpayers.
III.    Determined whether recipients used their IP PIN when filing their Tax Year5 2012 return
        and whether the IP PIN worked as intended. We used data from our Data Center
        Warehouse6 for PY 2013. We validated that the data we received were accurate and
        reliable by comparing the data from the Data Center Warehouse to the IRS’s Integrated
        Data Retrieval System. An auditor independent of the data analysis validated all the
        analysis by reviewing the logic and rerunning the queries. We found that the data could
        be relied on for this review.
        A. Determined the population of taxpayers who received an IP PIN and entered it on a
           Tax Year 2012 tax return in PY 2013.
        B. Determined the population of taxpayers who received an IP PIN but did not use it on
           a Tax Year 2012 tax return in PY 2013.
        C. Evaluated the clarity of the CP01A notice, which is used to provide taxpayers their
           IP PIN and instructions for using it.
        D. Assessed the effect of the programming error that caused the IRS to mail 88,255 IP
           PINs late, on February 4, 2013. For these taxpayers, we determined whether a tax
           return was filed on their tax account without an IP PIN.
        E. Determined the processing time of tax returns with refunds for tax accounts that have
           no identity theft indicator and the processing time of tax returns that have IP PINs.
           We calculated the processing time using the tax return received date to the refund
           issue date.



4
  The IDRS is a large-scale computer system integrated with other IRS data systems and designed to provide
instantaneous visual access to certain taxpayer accounts.
5
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
6
  Centralized storage and administration of files (which provides access to IRS data).
                                                                                                         Page 11
                          Identity Protection Personal Identification
                       Numbers Are Not Provided to All Eligible Taxpayers



IV.    Assessed the replacement IP PIN process.
       A. Assessed the process used by the IRS to provide eligible taxpayers a replacement
          IP PIN for instances in which they lost their IP PIN.
       B. Determined if the IRS properly notified taxpayers when original IP PINs were issued
          that there would be a possible delay associated with the use of a replacement IP PIN.
       C. Evaluated the information provided by IRS telephone assistors when taxpayers call
          the toll-free lines requesting a replacement IP PIN. We evaluated the script used by
          telephone assistors.
       D. Determined the difference in the processing time of returns processed with
          replacement IP PINs versus returns processed with the original IP PINs.
       E. Determined why the IRS issues the same replacement IP PIN number to all taxpayers
          based on the month they call for a replacement IP PIN.
       F. We determined how many taxpayers used the incorrect IP PIN that was listed in the
          Internal Revenue Manual as the March 2013 IP PIN replacement number.
V.     Assessed the risk of employee fraud and the risks to taxpayers and tax administration.
       We documented fraud risks related to IP PINs issued to identity thieves.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the PGLD office’s IP PIN
criteria and processes for providing assistance to victims of identity theft. We evaluated these
controls by interviewing personnel, reviewing documentation, and performing data analysis of
taxpayer accounts with identity theft indicators and tax returns filed with and without IP PINs
and with replacement IP PINs.




                                                                                          Page 12
                         Identity Protection Personal Identification
                      Numbers Are Not Provided to All Eligible Taxpayers



                                                                               Appendix II

                 Major Contributors to This Report

Russell Martin, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
W. Allen Gray, Director
Lena Dietles, Audit Manager
Pamela DeSimone, Lead Auditor
Jackie Forbus, Senior Auditor
Patricia Jackson, Senior Auditor
James Allen, Information Technology Specialist




                                                                                      Page 13
                         Identity Protection Personal Identification
                      Numbers Are Not Provided to All Eligible Taxpayers



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement
Deputy Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Director, Corporate Data OS:CTO:AD:CP
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Privacy, Governmental Liaison, and Disclosure OS:P
       Corporate Data OS:CTO:AD:CP




                                                                           Page 14
                                 Identity Protection Personal Identification
                              Numbers Are Not Provided to All Eligible Taxpayers



                                                                                      Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
          Taxpayer Rights and Entitlements – Actual; 557,265 taxpayer accounts affected
           (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS did not provide an IP PIN to 557,265 eligible taxpayers for PY1 2013. The following
taxpayers were not provided an IP PIN even though their tax accounts had similar identity theft
indicators as taxpayers to whom the IRS issues IP PINs.
          532,637 taxpayers had an identity theft indicator on their tax account indicating an
           employee resolved the case and corrected the account to reflect the innocent taxpayers’
           information.
          24,628 taxpayers had an identity theft indicator on their tax account indicating that their
           PII was lost, breached, disclosed, or stolen and the IRS was aware of the loss. The IRS
           mailed Letter 4281C, Incident Management Breach Notification Letter, advising these
           taxpayers of the data loss but did not offer them the chance to authenticate and obtain an
           IP PIN.

Type and Value of Outcome Measure:
          Taxpayer Burden – 13,220 taxpayers (see page 6)

Methodology Used to Measure the Reported Benefit:
The IRS inadvertently mailed IP PINs to the addresses of 13,220 deceased taxpayers. The IRS
programming code prevented an IP PIN from being created for deceased identity theft victims
but did not suppress the Notice CP01A, We assigned you an Identity Protection Personal
Identification Number, from being issued. Sending unnecessary IRS notices to surviving spouses
and grieving families increases their burden.


1
    The calendar year in which the tax return or document is processed by the IRS.
                                                                                               Page 15
                                 Identity Protection Personal Identification
                              Numbers Are Not Provided to All Eligible Taxpayers



Type and Value of Outcome Measure:
          Taxpayer Burden – Potential; 759,446 taxpayers (see page 8).

Methodology Used to Measure the Reported Benefit:
For PY 2013, the IRS issued a total of 759,4462 CP01A notices to taxpayers. The notice does
not provide taxpayers with adequate instructions on the importance of using the IP PIN on their
tax return. For example, the notice does not:
          Provide information regarding the effect on the processing of the taxpayer’s tax return
           and issuance of any refund due if the IP PIN is not used on the tax return. For example, if
           the primary taxpayer does not use his or her IP PIN when filing a tax return, IRS
           processing of the return and any refund due will be delayed. This delay results from the
           IRS having to perform research to determine if the return is fraudulent and filed by an
           identity thief or is the legitimate taxpayer’s tax return.
          Provide an explanation to taxpayers whose dependents received an IP PIN that these are
           not to be listed on a filed tax return. In fact, neither the e-filed or paper tax return
           contains an entry line for an IP PIN issued to a dependent. The IRS issues IP PINs to
           dependents whose Social Security Numbers have been used on a false tax return or whose
           identifying information was lost or stolen.
          Provide an explanation to those taxpayers who are a secondary filer (spouse) on a paper
           tax return that their IP PIN is not to be listed on the tax return because the paper tax
           return does not contain an entry line (but e-filed tax returns do).
          Inform taxpayers who received an IP PIN that they do not need to use the IP PIN if they
           are not required to file a tax return.
We agree that the notice cannot cover every scenario relating to the IP PIN. However, the lack
of adequate information for a taxpayer to understand why he or she received an IP PIN, how to
use it or when not to use it, and the benefits of being in the IP PIN program are key to reducing
taxpayer burden. When taxpayers receiving an IP PIN are not provided sufficient information or
cannot understand the actions they are asked to take, these individuals may have to research the
IRS’s website, visit a Taxpayer Assistance Center, or call the IRS’s customer service line.




2
    Total IP PINs issued minus the ones issued to deceased taxpayers (772,666 – 13,220).
                                                                                              Page 16
          Identity Protection Personal Identification
       Numbers Are Not Provided to All Eligible Taxpayers



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 17
   Identity Protection Personal Identification
Numbers Are Not Provided to All Eligible Taxpayers




                                                     Page 18
   Identity Protection Personal Identification
Numbers Are Not Provided to All Eligible Taxpayers




                                                     Page 19
   Identity Protection Personal Identification
Numbers Are Not Provided to All Eligible Taxpayers




                                                     Page 20
   Identity Protection Personal Identification
Numbers Are Not Provided to All Eligible Taxpayers




                                                     Page 21
